U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

May 26, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Naum Morgovsky and Irina Morgovsky v. United States of America,
S.Ct. No. 20-1595

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on May 13,
2021, and placed on the docket on May 17, 2021. The government’s response is due on June 16,
2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including July 16, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-1595
MORGOVSKY, NAUM AND IRINA MORGOVSKY
USA

LAURA LIVELY BABASHOFF
KING & SPALDING LLP
633 WEST FIFTH STREET
SUITE 1600
LOS ANGELES, CA 90071
MARISA C. MALECK
KING & SPALDING LLP
1700 PENNSYLVANIA AVE. NW
WASHINGTON, DC 20006
ANNE MARGARET VOIGTS
KING & SPALDING LLP
601 S. CALIFORNIA AVE., STE. 100
PALO ALTO, CA 94304
650-422-6710
AVOIGTS@KSLAW.COM

